<html>
<title> - [H.A.S.C. No. 113-8]TRANSITION IN AFGHANISTAN: VIEWS OF OUTSIDE EXPERTS STATEMENTS PRESENTED BY MEMBERS OF CONGRESS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                          [H.A.S.C. No. 113-8]

                       TRANSITION IN AFGHANISTAN:
                        VIEWS OF OUTSIDE EXPERTS 

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 27, 2013




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 _______

                      U.S. GOVERNMENT PRINTING OFFICE

  79-950                   WASHINGTON : 2013
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="791e0916391a0c0a0d111c1509571a161457">[email&#160;protected]</a>  

















                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                Michael Casey, Professional Staff Member
                           Aaron Falk, Clerk
















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, February 27, 2013, Transition in Afghanistan: Views of 
  Outside Experts................................................     1

Appendix:

Wednesday, February 27, 2013.....................................    31
                              ----------                              

                      WEDNESDAY, FEBRUARY 27, 2013
 
          TRANSITION IN AFGHANISTAN: VIEWS OF OUTSIDE EXPERTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Barno, LTG David W., USA (Ret.), Senior Advisor and Senior 
  Fellow, Center for a New American Security.....................     8
Cordesman, Anthony H., Arleigh A. Burke Chair in Strategy, Center 
  for Strategic and International Studies........................    11
Dale, Dr. Catherine, Specialist in International Security, 
  Congressional Research Service.................................     3
Keane, GEN John M., USA (Ret.), Former Vice Chief of Staff, U.S. 
  Army...........................................................     5

                                APPENDIX

Prepared Statements:

    Barno, LTG David W...........................................    64
    Cordesman, Anthony H.........................................    73
    Dale, Dr. Catherine..........................................    39
    Keane, GEN John M............................................    52
    McKeon, Hon. Howard P. ``Buck''..............................    35
    Smith, Hon. Adam.............................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................   127
    Ms. Speier...................................................   129


          TRANSITION IN AFGHANISTAN: VIEWS OF OUTSIDE EXPERTS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 27, 2013.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Good 
morning, ladies and gentlemen. The House Armed Services 
Committee meets today to receive testimony on the Transition in 
Afghanistan. Today we have with us Dr. Catherine Dale, General 
(Retired) Jack Keane, Lieutenant General (Retired) David Barno, 
and Mr. Anthony Cordesman. Thank you all for joining us here 
today and sharing your expertise.
    A discussion on our transition from Afghanistan should 
start with the reminder of why the United States went there in 
the first place. The most lethal and complex terrorist attack 
in U.S. history was plotted and perpetrated by Al Qaeda in 
Afghanistan. But after over 10 years of war the American people 
are understandably war-weary. The United States has committed a 
wealth of resources in the form of both blood and treasure to 
preserve a U.S. vital national security interest and prevent 
Afghanistan from being used again as a safe haven for 
terrorists.
    The question before us is whether or not we can continue to 
prevent Afghanistan from being used as such a sanctuary. The 
NATO [North Atlantic Treaty Organization] mission officially 
ends December 31st, 2014. Although we have not finalized the 
transition to Afghan security lead, President Obama already has 
announced withdrawal of half of the U.S. forces in Afghanistan, 
approximately 34,000 troops, by this time next year. In the 
near future the President likely will order additional troop 
withdrawals and determine the United States post-2014 mission 
set and military posture in Afghanistan.
    In my view the President is not adequately evaluating the 
risk associated with rapid and large-scale troop withdrawals in 
terms of both local and regional consequences, as well as U.S. 
vital interests. The President has decided to conduct the 
significant withdrawal of U.S. troops during the same time 
period that the Afghan security forces will be in the lead 
across the entire country for the first time. Moreover, the 
Administration does not have a discernible plan to reinforce 
the Afghan security forces if they cannot hold the gains and/or 
maintain the necessary security across the country. 
Consequently the President's approach is fraught with risk and 
lacks a comprehensive strategy to ensure the security and 
sovereignty of Afghanistan, and thereby U.S. interests over 
time.
    Rather, the President's approach to Afghanistan appears to 
be ``withdraw and hope.'' I am not advocating for a never 
ending combat mission in Afghanistan, but the President should 
make decisions on troop withdrawals within the context of the 
security conditions on the ground, the capability and capacity 
of the ANSF [Afghan National Security Forces] and the required 
mission sets after December 31st, 2014. We owe nothing less to 
the victims on 9/11, the U.S. troops and their families who 
have served and sacrificed, and our sons and daughters who will 
have to return if we get this wrong. The simple justice that 
comes from that principled position cannot be overstated.
    I look forward to your testimony and insights into the 
transition and way forward for U.S. policy in Afghanistan.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 35.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I thank you for holding 
this hearing and bringing together such a distinguished panel 
of experts on this very important topic, and I also agree that 
the mission in Afghanistan is very straightforward and clear. 
We were attacked by Al Qaeda and their organization which was 
based out of Afghanistan. We want to make sure that such an 
attack cannot emanate from that region ever again. We want to 
degrade Al Qaeda as much as possible and weaken their ability 
and the ability of any groups allied with them, and I think we 
have made considerable progress in that goal. I think the most 
notable example of that of course is getting Osama bin Laden 
but it is much, much deeper than that. The central structure of 
Al Qaeda has been largely smashed in Afghanistan and in 
neighboring Pakistan and their ability to plot and plan attacks 
against us has been significantly weakened. It has certainly 
not gone and we shouldn't elude ourselves about that, but 
progress has been made in that regard. We have also made 
progress in terms of the number of troops and security forces 
that we have trained in the ANSF, and we are moving in the 
right direction on that but should have no illusions. This is a 
very, very difficult part of the world. In both Afghanistan and 
Pakistan they have an endless series of problems with 
governance, corruption, education. It is not a stable place, 
and some of the most violent and dangerous ideologies that we 
face are present there. We are always going to have to pay 
attention to this region for our national security interests, 
but the question at this point is, is an unending U.S. military 
presence going to significantly change those challenges? I 
don't believe that it is. I believe that we have gotten pretty 
close to the point where we have done militarily what we can do 
in that region and it is time for the Afghan National Security 
Force and the Afghan people to take responsibility for their 
own security and their own governance. And the only way to do 
that is to transition over to them taking the lead. Now that 
process has begun. In a number of different provinces the ANSF 
has taken the lead on security and we are moving in that 
direction.
    Again I want to emphasize that I don't have any illusions 
here. I think perhaps the largest struggle there in Afghanistan 
is the governance piece: What happens in 2014 when President 
Karzai can no longer be president, when there is a new 
election--who we transition to in Afghanistan. How do we deal 
with the corruption issues and the lack of economic 
opportunity. Those challenges will always be present but having 
100,000 U.S. troops in the region isn't going to change that 
past a certain point. I think we have reached that point. I 
think the challenge for the Commander in Chief and the 
challenge for this committee and our experts is to figure out 
the best way to implement that path going forward is.
    I think the President has laid out a pretty reasonable 
strategy for doing that. Again, no guarantees, but it is the 
most logical thing to do at this point to transition over to 
the Afghan National Security Force, to reduce our presence in 
the region and move out and turn over responsibility to the 
folks who ultimately are going to have to be responsible for 
it. It is a simple fact that past a certain point a large 
foreign military force is in and of itself destabilizing. It 
does not build confidence in the Afghan, in any country's 
government, and any people would be concerned about having a 
large number of foreign military forces on their land. It is 
time to make that transition.
    I look forward to hearing from our witnesses about what the 
best way to do that, the difficult decisions that we face in 
making that decision, but I believe it is time to move in that 
direction. I look forward to the testimony and to the questions 
from the panel.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 37.]
    The Chairman. Thank you. Again I appreciate all of you 
being here today. We will proceed with Dr. Dale and then move 
to your left down the table.

 STATEMENT OF DR. CATHERINE DALE, SPECIALIST IN INTERNATIONAL 
            SECURITY, CONGRESSIONAL RESEARCH SERVICE

    Dr. Dale. Chairman McKeon, Ranking Member Smith, 
distinguished members of the committee, thank you for the 
opportunity to testify about transition in Afghanistan. As both 
a CRS [Congressional Research Service] analyst and as a 
practitioner I have had the privilege of spending considerable 
time on the ground throughout Afghanistan with our troops and 
our civilians. They are great American heroes.
    This is a critical time of transition in every sense from 
President Obama's recent announcement about troop drawdowns to 
the formal transition process, to Afghanistan's political 
transition in 2014, to broad shifts in international community 
engagement.
    A time of transition is an opportunity to revisit and 
affirm or refine U.S. strategy. So to that end it might be 
helpful to consider four basic questions. First, is it working? 
The campaign on the ground aims to reduce insurgent strength 
and build up the Afghan national security forces so that the 
ANSF can handle the residual threat, and it is working. The 
insurgencies are increasingly degraded, ANSF capabilities and 
confidence are growing, and our forces are successfully 
reorienting their efforts on advising and helping Afghans 
acquire and use their own organic enablers.
    The key question is whether the logic of the campaign is 
basically sound. If it isn't going to work, how can it be worth 
another dollar or another life? Second, what more needs to be 
done? It is not over yet. Campaign gains on the ground in the 
south still need to be consolidated and key challenges remain 
in the east further degrading the Haqqani network, eliminating 
Al Qaeda incursions in upper Kunar and Nuristan provinces and 
securing the long border with Pakistan. Many Afghanistan 
commanders are saying this is our fight now, but they are still 
eager for more advising and enabling support and for making 
sure that their own institutional architecture can support 
them.
    The choices we make now about the drawdown ramp and the 
enduring presence will have a major impact on those efforts. 
Too precipitous a drawdown could mean that Afghan forces 
attempt too little, ceding territory or striking bargains with 
the Taliban or that they attempt too much, failing 
catastrophically and destroying confidence in their ability to 
provide security.
    The key question is what we would need to do over time to 
help ensure that Afghan forces can handle that residual threat, 
that is a troop to task, not a task to troop analysis. Then 
those conclusions can be weighed against costs, risks, and 
competing exigencies.
    Third, is it sustainable? It is not all near term and it is 
not all about security. There are at least four arenas that 
could put the longer term sustainability of campaign gains and 
U.S. interests at risk. Pakistan, what would it take to make 
Afghanistan self-resilient enough to provide a bulwark against 
insurgent incursions from safe havens in Pakistan?
    The ANSF, what ANSF end strength and force mix would be 
needed over the longer term to provide sufficient security and 
protect campaign gains and who is going to pay for it. The 
economy, what would it take to make Afghanistan's economy truly 
viable over the longer term to make the most of its natural 
resources and human capital. And governance, what basic 
architecture of governance would be required to protect 
campaign gains, to hold the ANSF accountable, to steward the 
nation's resources, to provide access to justice, to foster 
good faith with Afghanistan's neighbors, to encourage foreign 
investment and to earn the trust of the Afghan people.
    The key question in all four arenas is what it would take 
to make campaign gains genuinely sustainable and what role we 
ourselves would need to play to make that happen. And then 
given the opportunity costs and realistic prospects for 
sustainability, is it worth it?
    Fourth and finally, how does this end? The war is not going 
to end with a great clash on the battlefield or even with the 
accumulation of campaign gains on the ground; it is likely to 
end with a political settlement of some kind, one that 
establishes the fate of insurgent leaders and fighters, the 
disposition of political power, the demobilization of some 
Afghan forces and modalities for societal reconciliation.
    The question is how to achieve a lasting settlement that 
would best protect U.S. interests. Is it a near-term, high-
level deal between a government that many Afghans consider 
rapacious and a Taliban leadership that many Afghans fear or is 
it a longer term process that brings to bear Afghanistan's 
greatest advantage: the 95 percent of the Afghan people eager 
for a stable future? The Afghan people are the ultimate 
arbiters of stability in Afghanistan. A clear shared vision and 
clarity about future commitment by the international community 
could help dispel Afghan's powerful tendency to hedge in the 
face of great future uncertainty.
    One final word, this four-part framework cannot determine 
the best way forward, but it may suggest value if we go forward 
of guiding our steps with clear political strategy, a strategy 
based on U.S. national security interests in Afghanistan and 
the region, that aims at minimum essential conditions necessary 
to protect those interests, that lays out ways and means and 
rules and responsibilities over time and that very clearly 
assesses and weighs the associated risks.
    Thank you for the opportunity, and I look forward to your 
questions.
    [The prepared statement of Dr. Dale can be found in the 
Appendix on page 39.]
    The Chairman. Thank you.
    General Keane.

 STATEMENT OF GEN JOHN M. KEANE, USA (RET.), FORMER VICE CHIEF 
                      OF STAFF, U.S. ARMY

    General Keane. Chairman McKeon, Ranking Minority Smith, 
distinguished members of the committee, thank you for allowing 
me to testify today on a critical subject as we transition 
U.S.-NATO operations in Afghanistan. I am honored to be here 
with such a distinguished panel who I have known for many 
years, and I do appreciate Dr. Dale's comments she just made on 
setting a framework for our discussion today.
    Some of the committee members are aware that I have 
conducted several assessments for our military commanders in 
Afghanistan. Having completed my last assessment for Generals 
Mattis and Allen last year, those visits have been invaluable 
to understanding so-called ground truth by assessing the 
progress or lack thereof of our campaign plans, goals, and 
objectives.
    And let me make an editorial comment, General Allen has 
turned over command in Afghanistan as we all know. I just want 
to make a comment for the record about what a superb commander 
General Allen has been, and he has been given one of the 
toughest tasks any general officer can be in having to 
prosecute our national interests in Afghanistan and he has just 
been a remarkable person and remarkable general officer.
    Given the four panel members today who are all making 
statements, I am going to make my remarks brief and I have 
taken some license to change my prepared remarks as I received 
some additional information.
    Afghanistan is rapidly moving toward its most critical 
milestone since 2001 when we deposed the Taliban. As 2014 
approaches and Afghanistan participates in a political, 
economic and security transition Afghanistan's future is 
dependent on the transition success of 2014. While the economic 
and security transitions are driven largely by NATO force level 
reductions, the political transition with the national election 
is exclusively Afghan as it will impact the confidence of the 
Afghan people and the international community at large in the 
Afghan political process. A relatively fair and open election 
that reflects the people's choices and results in an improved 
national government will be a significant step forward in the 
political development of Afghanistan.
    After almost 12 years of war in Afghanistan the central 
issue for me is how do we manage the risk, how do we avoid 
squandering the gains that we have made in Afghanistan. In the 
brief time available I will focus my remarks on that issue.
    Yes, we have been in Afghanistan a long time, ironically 
driven mainly by the United States decision to go to war in 
Iraq. As such Afghanistan in 2002 quickly became a secondary 
effort, indeed an economy of force operation and from 2002 to 
2009. When in 2009 the President of the United States made a 
decision to conduct counterinsurgency operations and to 
escalate the war by adding 30,000 surge forces, even this 
decision did not reflect what Generals McChrystal and Petraeus 
believed was the minimal force to succeed, 40,000 surge forces. 
Instead they received a force which was 25 percent smaller 
which dictated that the campaign in the south and the east be 
conducted sequentially versus simultaneously. Their campaign in 
the south was largely successful while the campaign in the east 
has not been completed, because the surge forces were withdrawn 
in my mind prematurely in 2012 over General Petraeus' 
objection.
    Recently the President of the United States made the 
decision to remove 34,000 of the 66,000 forces remaining by 
February 2014, versus keeping the 66,000 till the end of 2014. 
These decisions must be understood because they all have 
impacted mission success by increasing the risk.
    The most serious security situation lies in the east where 
we have never been able to conduct extensive clear-and-hold 
operations which led to much of our success in the south. As 
such there are Taliban and Haqqani support zones in the east, 
some not too far from Kabul. It is unrealistic to believe that 
the ANSF will succeed in eliminating these support zones 
permanently in the east, where NATO and ISAF [International 
Security Assistance Force] has failed to do so.
    In the south what remains is to consolidate the gains that 
were made in achieving relative stability, which has led to 
improved security and also improved local governance. Can we 
mitigate the risk? Well, I am not certain. I know not to try 
will doom us to likely fail.
    Three key decisions can begin to mitigate the risk and 
provide a hedge. First is the size and missions of the residual 
post-2014 force. There are three missions for the force: 
counterterrorism, training and assistance, and enablers to the 
ANSF. The counterterrorism mission to have the necessary reach 
to be effective given the challenges of the terrain in 
Afghanistan should operate from multiple locations, ideally 
coast Jalalabad and Kandahar, but certainly the commanders will 
make those decisions. These Special Operations Force units 
require, in addition to their own units, drone crews, analysts, 
helicopters with maintenance, medical trauma units and also 
security forces. If we consolidate the CT [counterterrorism] 
force to a single base, then we are not mitigating the risk; we 
are in fact increasing the risk by not having an effective CT 
force.
    The training and assisted mission spreads across six Army 
corps with permanent presence in three corps that have the main 
effort and across police zones. This is primarily advisers to 
assist with the continued growth and development of the ANSF. 
We would also be advising the Ministry of Defense and the 
Ministry of Interior and of course the corps and where 
necessary the brigades. There would not be embedded in the 
brigades a permanent advisory force.
    Finally, are the enablers for the ANSF. This is often 
misunderstood as to its importance. Just about every NATO 
country in Afghanistan requires enablers from the United States 
in varying degrees such as helicopters, intelligence, medical 
logistics, road and mine clearance. When the ANA [Afghan 
National Army], this is the army, was organized, recruited and 
trained the decision was to build an infantry force or a boots-
on-the-ground force, the point of the spear in other words and 
not the shaft. The enablers would be provided by the United 
States and are similar to what the United States provides NATO 
forces. Eventually the ANA will have its own enablers but not 
until beyond 2014. If the ANA is to be offensive minded, they 
must have confidence in their support, otherwise they will be 
paralyzed and reduced to defending their bases. At a minimum we 
must accelerate providing those enablers to the ANSF now so 
that we would reduce the requirement for them later.
    A summary of the forces required for 2014, residual force, 
are counterterrorism 7,000. This number includes all the 
support requirements to include security in addition to about 
the 2,000 CT SOF [Special Operations Forces] units. Training 
and assistance about 5,000, enablers to the ANSF about 8,000. 
This number can be reduced through acceleration of those forces 
now. That totals about 20,000, plus about 6,000 that would come 
from NATO. When the 2014 force level decision is made, I hope 
that we avoid announcing a drawdown ramp with that decision 
before we know what the impact of that decision is.
    The second mitigation to reduce the risk is the force level 
for the ANSF. Let me just say I believe the growth and 
development of the ANSF has exceeded our expectations. They are 
an acceptable force, which has and enjoys the respect of its 
people. All that said, it is too early to tell how they will do 
on their own, but the preliminary indications are positive 
based on what has taken place in the south where they are 
operating on their own. Currently at 352,000, which is the size 
of that force now, one of the options is to draw down the ANSF 
post-2015 to a level of 228,000. This makes no sense given the 
NATO-U.S. drawdown which is under way and which culminates in 
2014, while we obviously do not know yet what that impact will 
be.
    We can mitigate the risk by planning to fund the ANSF at 
the current 352,000 to 2020 and at least until 2018. At some 
point the Afghans will be in a position to making contribution 
to this funding level themselves.
    A third mitigation and my last one is to reduce the risk by 
authorizing the targeting of the Taliban and Haqqani leaders in 
the sanctuaries in Pakistan. Priority is the Haqqani sanctuary 
because of the unstable situation in the east. This will be an 
extension of the mission the OGA [other government agency] is 
conducting against the Al Qaeda in the FATA [Federally 
Administered Tribal Areas].
    Once systematic targeting commences the sanctuary will 
cease to exist as we currently know it, a place where strategy, 
training, operational oversight, intelligence and logistics is 
executed routinely in safe haven. These functions will suffer 
significantly, which will positively impact operations in the 
east. Additionally it will be a huge morale boost for the ANSF.
    Let me conclude by saying I believe there is far too much 
risk to a stable security situation in Afghanistan as we meet 
here today. This is driven mostly by past U.S. policy 
decisions. I recognize that many observers are looking to a 
political settlement as the most desirable outcome, and 
certainly it is that. But the harsh reality is the more risk 
there is to mission success the less likelihood of a 
settlement. If the Taliban and Haqqani believe they will gain 
an influence in 2014 and beyond, why settle? If future policy 
decisions on U.S. 2014 force size and ANSF force levels, the 
two remaining key decisions, do in fact increase the risk 
versus mitigate the risk, a favorable outcome is unlikely.
    Ambassador Ryan Crocker, as you many of you know, is an 
extraordinary diplomat, the very best we have had in the region 
who said, ``How we end the conflict and what we leave behind is 
more important than how we began it.''
    Thank you, and I look forward to your questions.
    [The prepared statement of General Keane can be found in 
the Appendix on page 52.]
    The Chairman. Thank you.
    General Barno.

STATEMENT OF LTG DAVID W. BARNO, USA (RET.), SENIOR ADVISOR AND 
       SENIOR FELLOW, CENTER FOR A NEW AMERICAN SECURITY

    General Barno. Chairman McKeon, Ranking Member Smith, 
members of the committee, I would like to express my 
appreciation for being invited to appear before you today to 
address the coming U.S. and NATO transition in Afghanistan. I 
will try and be fairly brief.
    As the war now enters its twelfth year Americans deserve a 
serious look at the plans now in place to responsibly conclude 
our involvement in this long and difficult conflict. My remarks 
on the topic today reflect my own personal views and are not 
those of the Center for New American Security or any other 
entity; they are my own.
    Unlike our other panelists today I have had the privilege 
of commanding the Afghan theater of war. My service there 
spanned 19 months from October 2003 to May of 2005. That tenure 
was one of the longest among our 11 different military 
commanders that the U.S. has had in the Afghan war, and it 
certainly occurred at a less violent and broadly more 
optimistic time. But since 2005 I have also remained closely in 
touch with the progress of the war and traveled back several 
times to the theater, both Afghanistan and to Pakistan, to 
observe ongoing operations and speak with Afghans, Pakistanis, 
Americans and our NATO allies across the region. I have also 
written and spoken extensively on the course of the conflict 
during the last 8 years and appeared before this committee and 
in other congressional committees in excess of 10 times now.
    On a more personal level both my sons are Army captains who 
have served a year or more in combat in Afghanistan. Scores of 
my uniformed and former colleagues' sons and daughters during 
our time growing up in the military, the former playmates of my 
children at military posts all across the country, have also 
served in Afghanistan. Some have been wounded, others killed, 
folks that we know well, family members from across the big 
military family out there. So my involvement in this very long 
fight is both personal and professional. I know as a parent 
what it is like to have a family member in the combat zone. I 
know that is true of members sitting in the committee today. 
This outlook is apparent, it is never far from my thinking as I 
try to reach logical conclusions about our ongoing efforts and 
try to think about the road ahead. So our decisions are set in 
this context broadly.
    As we seek to achieve our long-term strategic objectives 
with that risk of keeping Americans at war in Afghanistan, we 
have to be thoughtful about what we have done and what can 
still be accomplished in this war. In my judgment the lives of 
future Americans serving in Afghanistan only deserve to be put 
at risk where vital U.S. interests are at play, and that the 
risk of those lives is demanded by defending those vital 
interests. I know that that is a calculus that this committee 
takes very seriously.
    So in examining our efforts looking to 2014 and beyond, it 
is worth returning briefly to first principles, what are our 
vital interests in this region, now and after 2014. What are 
the absolute essentials and what is the minimum essential 
military force we need to be able to defend those.
    I would characterize perhaps three. The first that we all 
recognize is preventing the region's uses of base for terror 
attacks on the United States and our allies. That is why we are 
in Afghanistan, the 9/11 attacks, which we all vividly remember 
are something that can never happen again.
    Second, I think we have a regional vital interest to 
prevent nuclear weapons or nuclear materials from falling into 
the hands of terrorists or other hostile actors. That of course 
is outside of Afghanistan but very much in the neighborhood.
    And then third, I think we also have a vital interest in 
regionally preventing a nuclear war between India and Pakistan. 
So I would argue that defending those vital interests in the 
coming years ought to be the focus of our efforts, that we 
should not be overly fixated on our current commitments, what 
we have done for the last decade, but think about how do we use 
this upcoming transition to make sure we are postured to defend 
those three vital interests in the years ahead. Those are I 
think of overriding importance to the United States.
    How do we go about doing that? I think that we clearly need 
a U.S. base in this region from which to exert influence on all 
the regional actors, to keep relentless pressure on terrorist 
groups targeting the United States and our allies, and to 
support our friends across the region. So I think again, as 
Keane pointed out, there is a two-fold mission here, enduring 
mission for American forces, one counterterrorism and secondly 
support for Afghan security forces, training, advising and 
assisting them. But whatever we do has to be sustainable as 
well as being able to protect those interests. We are in a 
fiscally austere environment today, we can use a rough order of 
magnitude of math that it is a million dollars per American 
soldier per year in Afghanistan. Looking ahead and as those 
numbers come down that number might go up because some of the 
economies start to dissipate. So I think we have got to keep 
that in mind as we protect these vital interests.
    In my judgment we can accomplish those two missions, the CT 
mission and the support mission, in Afghanistan with somewhere 
in the neighborhood of 8-12,000 forces, U.S. and NATO combined. 
I would also agree that we need to sustain the size of the 
Afghan military and police, the security forces, at their 
current levels of 352,000 for another 5 years. We do not need 
to be drawing those forces down at the very time that American 
forces are drawing down. I think the dollars that we would save 
there are better invested in maintaining robust Afghan security 
forces.
    And then finally I would argue most importantly for the 
Afghans we need to continue our financial support for their 
military. That in many ways I think is even more important than 
maintaining large numbers of American forces in Afghanistan 
attempting to help them be successful. I think after 8, 9, 10 
years of effort of training Afghans, equipping Afghans and 
supporting Afghans in the field at the cost of somewhere in the 
neighborhood of $50 plus billion, the 352,000 Afghan security 
forces have every ability to defend against about 30,000 
Taliban who don't have an air force, who don't have a large 
training establishment, who don't have modern equipment. I 
think that ratio is well within the Afghan's capabilities.
    So I would just close by thanking you again for the 
opportunity to present my views on this very long, very 
difficult, very intractable conflict as we consider the road 
ahead. I think I will agree with almost all of our panelists 
today that this coming transition is a tipping point for our 
long-standing efforts in Afghanistan. Making the right choices 
at this juncture can help us the secure the gains paid for by 
Americans and our allies and so much blood and so much of our 
treasure over the last decade.
    Securing our long-term vital interest is achievable as we 
end our combat presence, but I think it can be done with a 
limited U.S. and NATO footprint, paired with sustained 
international financial support for the Afghan forces. I think 
the limited troop deployments and outlays are required as a 
prudent investment to help assure stability in a very dangerous 
part of the world.
    Thank you.
    [The prepared statement of General Barno can be found in 
the Appendix on page 64.]
    The Chairman. Thank you.
    Mr. Cordesman.

 STATEMENT OF ANTHONY H. CORDESMAN, ARLEIGH A. BURKE CHAIR IN 
    STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Cordesman. Chairman McKeon, Ranking Member Smith, and 
members of the committee, I have a few minutes in which to deal 
with what is an extremely complex and controversial set of 
issues that are shaping whether the ANSF, the Afghan forces, 
can actually support an effective transition. I have provided a 
detailed analysis that really explains what I am about to say 
in depth and I have relied largely on official statistics for 
most of it as well as my own visits to Afghanistan and 
experience, and I would request that that be put into the 
record.
    But let me quickly focus on what I think the key issues are 
here. Dr. Dale touched on part of this. You can't have an 
effective Afghan force mix unless you have effective Afghan 
leadership and leadership that focuses on actually using those 
forces, allocating them, and supporting them effectively. It is 
highly questionable whether we have that in President Karzai 
and those around him. It is even more questionable who will 
replace him and whether there will be enough unity in 
Afghanistan as transition proceeds to actually have effective 
leadership of Afghan forces.
    Money has historically been a critical metric in supporting 
any forces, whether they are Vietnam, Iraq or Afghanistan. The 
fact is that we have gone from figures that once were over $9 
billion a year to $6.7 billion a year, to $4.1 billion a year 
and no one has provided any clear plan or justification for 
this funding or cost. I can't tell you whether the numbers are 
high or low, but the numbers emerge after we set the force 
goals, and it is rather striking that we seem to be moving 
toward less and less as we are attempting to build up to more 
and more.
    I have to say that any focus on total manning is to me 
largely meaningless, 352,000 going down to 328,000 at some 
unstated time in the future. What force elements are involved? 
What capabilities do they actually have? How are they actually 
performing in the field? And I would say this number is 
particularly meaningless when what you have in terms of actual 
combat capability is a strengthening Afghan National Army, a 
very uncertain plan for the Afghan Air Force, and one effective 
element of the Afghan police which is called the ANCOP, or 
Afghan National Civil Order Police. That makes up 49 percent of 
the force. The other 51 percent, according to both the most 
recent report from the Department of Defense and from the 
Special Inspector General for Afghan Reconstruction is a 
largely corrupt and often incapable mix of the Afghan Uniform 
Police and Afghan Border Police. These lack the support of 
effective governance and the other elements of the justice 
system in much of the field, particularly in high risk areas. 
They are subject to local power broker influence today and in 
the case of Iraq the type of force essentially dissolved as an 
effective national force when we left and did so within about 3 
months. National polls do not show these forces are as popular 
as the other forces and do show they are intensely corrupt. And 
that means a focus on building forces should be a focus on the 
forces that work, not manpower goals.
    We also see in the most recent reporting, particularly of 
the Department of Defense, we have not provided even today 
adequate numbers of trainers and partners for much of the ANA 
and we have drastic shortfalls in the numbers of those partners 
for the Afghan police. All of that is laid out in the report, 
the semiannual report of the Department of Defense.
    For all the reasons General Keane laid out, we need a clear 
plan for how we are going to provide air power, enablers, 
trainers and partners over time. And we need conditions-based 
efforts, not some fixed number. At this point in time we have 
no such plan, and we are now less than 2 years from transition.
    There is another more public focus on what are called 
capability milestones and commander unit assessment tool 
scoring systems. We say that forces are in the lead, for 
reasons laid out in the latest Special Inspector General for 
Afghan Reconstruction as well as in reporting by the Department 
of Defense. We have never been able to stabilize what we mean 
in this ranking system for even 3 months, much of the force is 
not covered, particularly the police force, in the ranking 
system. The Department of Defense has stated the whole system 
will be replaced by an Afghan system in the course of the next 
year and no one knows what ``in the lead'' means in terms of 
practical performance in the field.
    The fact is if you want a meaningful system, you have to 
describe forces by key element of the order of battle in terms 
of what they do in the field. And the problem is not simply the 
threat, it is how stable the overall capability is in terms of 
do they have support from local power brokers, are they getting 
support from the government, are they properly funded? All of 
this requires to us have the kind of active support presence 
General Keane has outlined. But to measure what they can and 
cannot do, you need meaningful, unclassified metrics of what is 
actually happening in the field. We now show units in the lead 
without saying where, doing what, or what their impact is. We 
have largely meaningless statistical reporting on enemy 
initiated attacks, a terrible measure even if the data were 
accurate, for counterinsurgency, and there is no progress by 
that metric since 2009. If we go back to the Iraq war the 
dominant metric was SIGACTs, significant acts per month. That 
showed a massive improvement over time. If you look at the 
Department of Defense reporting there is zero improvement over 
time by that metric. We don't see an improvement in overall IED 
[improvised explosive device] attacks versus bombs actually 
exploded. And the U.N. [United Nations] has reported a 700 
percent increase in the attacks on Afghan officials in the 
course of the last 12 months. The latest DOD [Department of 
Defense] report if you look at the annex shows that a major 
insurgent presence still continues in Kandahar and Helmand, the 
reporting on drugs show a very significant increase in drug 
cultivation in Helmand. That is in other parts of the areas we 
did not occupy and the Taliban influence is not addressed. We 
basically have dropped from all of our reporting progress in 
the 81 critical districts and more than 40 districts of 
interest, which were the focus of our strategy until mid-2011. 
And with that we have removed every public indication of 
progress in governance, in aid by district and in the rule of 
law by district.
    So let me just say if we are going to make this work we 
need patience, we need to be there long after 2014, but above 
all what we really need are honest assessment, honest metrics, 
and honest plans to focus on each element of the Afghan forces 
separately and show two things: what can they really do 
relative to the insurgents over time, and second, how do they 
relate to the problems within the Afghan government and within 
Afghan power brokers?
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Cordesman can be found in 
the Appendix on page 73.]
    The Chairman. Thank you very much. The written statements 
of each of you will be included in the record. Without 
objection, so ordered.
    General Keane, there was a report in the Washington Post 
that the White House is seriously considering a plan from the 
Pentagon in which the U.S. would retain a residual force of 
8,000 troops after the NATO mission ends in December 2014 and 
then reduce the number of troops to between 3,500 and 6,000 by 
2016. Additionally, the option of further reducing the U.S. 
troop presence to 1,000 troops by 2017 is under serious 
consideration.
    What are the reasonable sets of missions that the U.S. 
military would be able to conduct with 8,000, 6,000, 3,000 and 
1,000 troops? Is there any threshold of troops in which the 
risk to the U.S. forces outweighs the value of having them 
deployed in Afghanistan?
    General Keane. Well, that is a great question, Mr. 
Chairman. The fact of the matter is trying to put together a 
drawdown plan, as you suggest, if that is in fact the case, 
before we know what the impact of our current drawdown is, I 
think is foolish. Clearly conditions on the ground have to 
drive our policy decisions. I understand the urgency and I 
think the attitude of the American people of being tired of 
this war, but in the same respect it takes leadership to deal 
with the issue. War is fundamentally a test of wills and the 
amount of will that you have to see, to persevere the setbacks 
and disappointments is absolutely critical. In my judgment if 
we bring force levels down below 10,000, it seems awfully 
difficult for me how you will structure a counterterrorism 
force that is going to have the kind of effect we want it to 
have, which would be a hedge against the reduction of our 
forces, the training assistant mission will suffer and so will 
the enablers. Now there are some things I mentioned in my 
remarks. If we can accelerate the helicopters, the C-130s 
[Hercules strategic airlifters], the MEDEVAC [medical 
evacuation] capability and some of the other support 
infrastructure to the ANSF and put it on fast forward, we can 
reduce some of those numbers. But to get down below--to get to 
the numbers that you suggest and then draw down to 6,000 to 
3,000 and 1,000 over the next few years I think dooms us to 
failure. I mean it is a complete disregard of what the reality 
on the ground is. And if that is actually the plan, if that is 
what we would come out with, I don't know how we justify 
keeping troops there, given the fact that we have given them a 
mission that they cannot succeed at.
    The Chairman. The Washington Post article goes on to say 
that Special Operations troops would not be based in 
Afghanistan after 2016, but would swoop in from ships or bases 
in nearby nations. If this report is true is it possible to 
effectively conduct counterterrorism missions without a base in 
Afghanistan in your view? And what would be the specific 
challenges associated with conducting effective 
counterterrorism operations in this circumstance?
    General Keane.
    General Keane. I thought that was Dave, I am sorry. I am 
used to your pattern of moving down the table.
    I think believing that we can conduct over the horizon 
operations in that region is actually irresponsible. We have a 
major operation taking place, we don't discuss it very much but 
we all know it exists conducted by the OGA against Al Qaeda's 
central leadership in the FATA. That would not be able to go on 
if we do not maintain some kind of security presence in 
Afghanistan. Those operations are conducted from secure bases 
in Afghanistan. Afghanistan is a landlocked country. It would 
be impossible to conduct those operations in my view from 
outside of those distances which would be greater than 600 
miles. I mean you just can't get there, refueling helicopters, 
et cetera, the other support mechanisms that we need, refueling 
drones, it is impossible to conduct that mission with any 
effectiveness.
    So I think it is absolutely irresponsible to think we can 
do that. General Barno is absolutely right. Regardless of how 
we size this force and we are going to argue over ANSF force 
levels as well, the United States in terms of its vital 
interest in the region has to maintain a base in Afghanistan to 
support our vital interests in that region and not the least of 
which is the relentless and dogged pursuit of the Al Qaeda 
central leadership which is currently resident in Pakistan.
    The Chairman. Thank you very much.
    Mr. Smith.
    Mr. Smith. I thank you, Mr. Chairman. Just two areas of 
questioning. One, governance is a key piece here, I mentioned 
in my opening remarks the transition coming in 2014. So I am 
curious how you see that playing out and what the challenges 
are in finding the next president of Afghanistan whether or not 
we can find a reliable partner.
    The other question I have and I don't think too many people 
are seriously saying that we shouldn't have a base in 
Afghanistan. Certainly we are going to need to continue 
operations there, but I think the comparison I will make and 
the thing that I find puzzling is we also have a major national 
security challenge in the Horn of Africa between Somalia and 
Yemen, and certainly the challenges are different I will grant 
you that. No two situations are exactly the same. But certainly 
they are pretty significant in Somalia and Yemen and neither 
one of those governments are exactly models of democracy or 
even functioning government, Al Qaeda is very present, 
certainly in Yemen, arguably in Somalia. We can't just walk 
away from that either, we have to have a presence, we have to 
meet our national security interest just like in Afghanistan. 
And yet in that area the exact number as I understand it is 
classified, in that area the number of U.S. troops present is 
less than four digits and that is what we are managing. So when 
we talk about Afghanistan we talk about oh, my goodness, we are 
going be below 68,000 or we are going to be below 34,000, I 
think we are missing something in terms of how we should apply 
our national security strategy here. There is unquestionably a 
national security interest in that region that will last 
frankly for as long as I can envision. Maybe 10 years from now 
something is dramatically different. I would bet against it but 
it is at least possible. We will always for some long period of 
time have an interest in making sure we can contain that 
threat. But I think we just aren't doing our jobs from a 
national security standpoint if we can't figure out a way to 
maintain that threat with less of tens thousands of troops and 
tens of billions of dollars a year. That I think is our charge. 
It is a huge challenge, I grant you, but again it is not like 
we don't have that challenge in other places. So why is it we 
are hearing dire predictions about going down to 34,000 and yet 
again in this other place where we have a similar challenge we 
are able do it for less than a thousand? Again granting that 
there are differences, but we ought to be able to get to that 
place over a reasonable time frame, because our mission is not 
to build and perfect government in Afghanistan, it is not to 
fix that country or nation-build, it is to protect our national 
security interests, as the chairman described and I think most 
of you have described. So why can't we get there in a more 
affordable path?
    General Barno, I will give you the first crack at that.
    General Barno. Thanks very much. I think first comment on 
your opening note on the political transition in 2014. We are 
looking at a military transition, we will spend most of our 
time on that today. This political transition may be the most 
important transition in Afghanistan in the next 5 years.
    Mr. Smith. I believe that it is.
    General Barno. I was there for the first election in 2004, 
I watched from Washington the disastrous 2009 election which 
was in some ways not even a legitimate outcome. We can't 
replicate that again, so we have got to take a much more active 
role behind the scenes to ensure there is for Afghan standards 
a reasonably fair and free election, because if that doesn't 
work we have got much bigger problems.
    You second question on the size of the force, I think one 
of the fundamental questions that we are dancing around a bit 
today and we will for the next couple of years is to what 
degree is the United States going to continue to fight the 
Taliban versus fighting Al Qaeda after 2014. I think the shape 
of the transition right now would suggest that our new approach 
in a sense, and I wrote down what is our theory of victory over 
the Taliban here. Our new approach essentially is to empower 
the Afghan forces to take on that role, to backstop them but to 
give that to them as a principal responsibility and thereby 
lessen U.S. outlays and resources and troops. Pretty sensible, 
especially after 11 years and a tremendous investment in 
preparing that.
    I would agree with General Keane we do need to accelerate 
the Afghan enablers, their helicopters, their attack 
helicopters, their C-130 airlifts because they need to be 
relying on their own resources not on American resources. So I 
think that would be a very smart move in addition to 
maintaining substantial forces for them, but I do agree that we 
can drive our forces down to a significantly lower level. I 
don't necessarily think the 1,000 Americans or 8,000 is the 
right answer but I think in the 10,000 plus or minus range is 
viable.
    Mr. Smith. Okay. Mr. Cordesman, do you want to take a stab?
    Mr. Cordesman. Yes. I think first we need to be much 
franker about the prospects of what will happen with this 
election. The Afghans themselves talk about having some kind of 
loya jirga [grand council] so the key factions will actually 
have some degree of national unity as we depart.
    The election by itself, honest as it may be, is very 
unlikely to produce a leader that will really be able to deal 
with this on his own, because none of us can name that leader, 
and the people we can name have not shown that they are easily 
able to deal with this. But the caution I would give you is 
when you are dealing with the Taliban and the insurgents, it 
isn't governance in Kabulstan that counts, it is governance in 
the areas where the threat is present or where there are ethnic 
and sectarian factions that may split out.
    Now for all the talk of our training of new civil servants, 
when we went into Kandahar and Helmand we had to waive the 
qualifications to staff it, and we still have serious problems.
    I think we need to have a much franker picture of what is 
going to happen and stop focusing simply on the legitimacy of 
the election.
    But let me go on to your point about troop levels. Like it 
or not, we shape this force in many ways to our standard, by 
our rules. We have rushed it forward progressively at almost 6-
month intervals, forcing NTM-A [NATO Training Mission-
Afghanistan] and others to change their mission. It isn't going 
to be ready at the end of 2014. It is going to need, not simply 
enablers and trainers and partners, we are short about 20 
percent of those already for the ANA, for the ANP [Afghan 
National Police] it is more like 35 percent. We are not going 
into this with a stable basis for meeting our requirements. And 
we are really rushing the Afghans into a training role for 
which they are not qualified.
    Mr. Smith. Well let me ask you this: Would it be ready in 
2020?
    Mr. Cordesman. The answer I think is, is it credible that 
we could do this with the ANA and the ANCOP and the Afghan 
National Air Force by 2017? If we put the effort into it, yes. 
Can I give you say more than a 60-percent assurance? Even that 
requires a level of prophecy I don't have.
    Mr. Smith. I apologize, I have to run to something so I 
will have to close by saying I think that is the point. The 
challenges you all describe present there in 2 years, in 3 
years, in 5 years, in 10 years, in 15 years there is a 
limitation on the capability of people in Afghanistan and us 
spending a lot more money and risking a lot more lives butting 
our heads up against that just is not the prudent policy. I 
think we need to begin the transition as best as we can.
    I thank you for your answers, I will be right back for the 
rest of your testimony as well. Thank you.
    Mr. Thornberry. [Presiding.] I will yield to myself for 5 
minutes. General Barno, let's talk about political transition 
for just a second. This week or last week President Karzai 
ordered, supposedly, Special Operations to be removed from one 
province. It seems to me if there is a time deadline, then 
whether you are the president of the country or you are the 
local tribal leader you are going to start hedging your bets 
because you know that the U.S. presence is not going to be 
there in the future, these other guys will be, and so you start 
partly playing to the crowd and partly kind of hedging because 
you know they are going to continue to be there.
    Is that not a challenge for political transition that is 
caused by having time deadlines rather than condition-based 
changes?
    General Barno. I am not sure how that plays out at the 
local level from the sense of the 2014 political transition. 
But what I do think is critical, and I think we have sent some 
mixed messages on this that we need to unify and send a single 
message, which is that the United States is not leaving after 
2014, and NATO is not leaving after 2014. We are drawing down 
our forces, we are going to have a different mission set, we 
are going to have a different footprint around the country. 
Every district in Afghanistan that had American troops in 2009 
will not have American troops in 2014. I think the Afghans 
actually are rather happy to have that outcome, not afraid of 
it. But I also think that there is a muddled message out there 
about whether the United States actually is exiting stage right 
completely in 2014. And that would very much play to the 
concern that you are expressing about hedging our bets, sitting 
on the fence, starting to look for other players to hedge to.
    So I think we have got to be relentless with our message in 
the international community and here in the United States that 
we are not abandoning Afghanistan, we are going to sustain this 
commitment. And we have to build it in a way that is credible 
to them as they look at how big it is and how much it costs, 
too, as well as to our own people. I think that is the best way 
to approach that.
    Mr. Thornberry. Okay. General Keane, General Barno brought 
up this point about to what extent we target the Taliban. You 
mentioned targeting Taliban and Haqqani in Pakistan. Talk to us 
a little bit about how you see that playing out. In the future, 
if we are going to have a limited number of people and a 
counterterrorism mission, whatever the number is, are we going 
to have to just limit our operations to people who are card 
carrying Al Qaeda? The lines between these groups seems to me 
to be a little blurry. As we look at this counterterrorism 
mission, which everybody agrees is the key thing that we want 
to focus on going forward, how do we distinguish the targets, 
if you will, or the enemy in carrying out that counterterrorism 
mission to prevent Afghanistan from being a base for operations 
again?
    General Keane. Yes, well, certainly the two major 
sanctuaries in Pakistan where the Afghan Taliban are in 
residence, down in Quetta and also to the east where the 
Haqqani is, have protracted the war. I mean you got to think of 
these in your own minds as military bases where primary 
functions take place, command and control, intelligence. These 
are military bases where the Pakistani military comes in and 
helps to train, Pakistani military comes in and helps to train 
Afghan Taliban to prosecute war against us. These are bases 
where the ISI [Inter-Services Intelligence] provides 
intelligence on operations to prosecute war against U.S. forces 
and Afghan National Security Forces. This is what we are really 
talking about. And we have permitted these sanctuaries to 
exist. By definition, we are in Afghanistan longer because of 
those policy decisions. And our unwillingness to come to grips 
with this issue with the Pakistanis because of the so-called 
``complicated relationship,'' I think that relationship should 
have changed to a conditions-based relationship a number of 
years ago. For the life of me, if we are going to continue to 
accept the risks that we are taking with force levels in 
Afghanistan that we are currently taking, and that I believe we 
will take over decisions made in the next year or so, one of 
the major mitigations to be able to absorb that level of risk 
will be to go after those sanctuaries. It would be a jolt in 
the arm for the ANSF to be sure. We do not have to go in there 
and fight these people. We have to go in there and conduct 
drone operations so we disrupt their activities. Right now they 
are holistically performing these functions similar to what we 
do on military bases. Once they receive systematic attacks, 
those functions are disrupted, they are decentralized, the 
whole fabric of what they are trying to achieve is impacted 
rather dramatically. And that is a major way to reduce the risk 
that we currently have and that we will have in the future. 
Those operations would be largely and exclusively conducted by 
OGA. That would be an expansion of the current mission we have 
against the Al Qaeda. And I am assuming that would take a 
finding by the President of the United States to be able to do 
that mission and order the OGA to do it.
    Mr. Thornberry. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. Thank you, all of 
you, for being before us today. Oh, gosh. Mr. Cordesman, I 
think it was you who said we have to look at this from honest 
assessments, honest metrics, and honest plans for the future 
when we look at this issue of Afghanistan. And obviously, we 
have been at this for over 11 years. I do agree with my 
colleague, Mr. Smith, that we have to look at this from a U.S. 
national security perspective, and not from a perspective of 
building Afghanistan, if you will. So, my question goes to all 
the information that I get back from our men and women working 
mostly in the military on the ground there in Afghanistan, but 
also some of our NGO [non-governmental organization] people and 
some of the Europeans trying to help in there. And this goes to 
the whole issue that we have sort of set our ability to leave 
Afghanistan and triumph, if you will, in Afghanistan with 
respect to the police and the Army that we have there in 
Afghanistan, their own security forces. You know, when I hear 
from people that everything at every level is corrupt--I have 
publicly said this, I think Karzai is one of the most corrupt 
people I have seen. His own members of his parliament said that 
to me once when I was out there. But what about, you know, when 
we look at this army, you know, I have people telling me that 
people who sign up for the army, these 300,000-some people that 
we have out in Afghanistan sign up at 63 years of age, don't 
show up. I am told about all these ghost soldiers that we have 
on payroll. I am told about, you know, we are buying land in 
Afghanistan to set up police stations. We don't even buy land 
from people as a Federal Government here in the United States 
to make police stations. And how, you know, one day it is 
clear, we decide, yes, this is what we are going to buy, and 
when we come back now there are squatters there, now we have to 
pay $10,000 to squatters who were not there before but are 
there today. I mean all the corruption that happens at every 
level.
    So my question to you is do you really think we are going 
to have a police force at the local level and a national army 
at the federal or united level there in Afghanistan that is 
really going to be able to move this country forward and take 
care of its citizens given the corruption at each and every 
level that is going on there?
    Mr. Cordesman. I think we need to be very careful. The 
Afghan National Army has, I think, established by Afghan 
standards a reasonable level of integrity. It is never going to 
be by our standards a perfect force. Whatever happens in 
Afghanistan will have corruption by Afghan standards. But I 
think it would be dangerous to not say that there are many 
people in the Afghan National Army, or the ANCOPs within the 
Afghan police that have established a very high standard of 
patriotism, effectiveness, and integrity. That force, if it is 
properly supported, may--I can't give you a prediction--be able 
to deal with what is a relatively small and unpopular group of 
insurgents. It will depend a great deal on the level of 
governance, and it will depend a great deal on the level of 
aid. When it comes down to the police, every report, including 
the most recent Department of Defense report and SIGAR [Special 
Inspector General for Afghanistan Reconstruction] report, shows 
it remains highly corrupt. It is not going to change. It is not 
going to be effective in broad terms, although, again, there 
are elements which are both patriotic and honest. But it also 
is not critical to establishing security. Historically, it is 
also true that, like it or not, it will be local forces like 
the Afghan local police and militias which will be critical in 
many areas. And here is another reason, perhaps, for keeping a 
Special Forces presence in limited form. But is this a high 
risk operation? Yes, it is a high-risk operation. And that risk 
I think is exemplified again by the Department of Defense 
reporting on the shortfalls in advisors, trainers, corruption, 
and the lack of independent capability on many elements of the 
police and the forces within it.
    Ms. Sanchez. Thank you, Mr. Cordesman. Thank you, Chairman.
    Mr. Thornberry. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank all of you 
for being here today. General Keane, it was distressing to me 
to hear your comments about Pakistan, because this is a country 
that we have worked with for decades providing aid, training 
the military, as you indicated. It is so disappointing, because 
I have seen where the American people have made such a 
difference. I had the opportunity to see firsthand the American 
marines providing the hospital care at Muzaffarabad for the 
victims of an earthquake. The relationship that should be 
there. I know that we have done so much when they have floods, 
with asking nothing except to back up and establish a positive 
relationship. I had the opportunity to visit with former Prime 
Minister Benazir Bhutto a month and a day prior to her murder. 
There should be so many opportunities, understanding that--and 
we read about terrorist attacks virtually weekly across their 
country. Why can't we truly establish an ability to work 
together for stability, which would be mutually beneficial for 
the people of Pakistan, Afghanistan, and America?
    General Keane. I think largely because our interests 
conflict. And the Pakistani interest in Afghanistan is a little 
different than ours. And that is why they have always hedged 
their bet with the Taliban so to speak, because they believe 
they may in fact have to deal with them again. And they are 
very concerned about the incumbent government and what they 
perceive to be a closer relationship between that government 
and India, which is the paranoia that the Pakistanis have 
always suffered from. So this adds to the complication, you 
know, of this relationship, and the fact that they are a 
growing nuclear arsenal in the region with a military oligarchy 
that truly runs the country, a largely ineffective civilian 
government. And it gives us a lot of concern, you know, for the 
region. And then you add the added factor of support for the 
Afghan sanctuaries in Pakistan, and I believe it has paralyzed 
our ability diplomatically, you know, to deal effectively with 
them as it pertains to the issue on Afghanistan.
    You know, another data point is the two factories in 
Pakistan which produce close to 90 percent of all the ammonium 
nitrate that is used as the explosive ingredient to all the 
IEDs that kill us and maim us every single day. I mean we 
should have done something about those factories a long time 
ago. Now, I understand that Secretary Clinton has taken this 
on, and it appears maybe there has been some progress recently, 
although I don't have any confirmation of that. But I think 
that is essentially the basic reason is our interests do 
conflict. What I have been disappointed with, I am not a 
diplomat, but what I have been disappointed with is our 
inability to shape the conditions a little bit to bring the 
Pakistanis closer to what our objective is as it pertains to 
those sanctuaries. And obviously, they have interests that we 
can influence as well, and a concerted effort to do that. I 
don't want to be Pollyannaish about it, but I think we could 
have achieved better diplomatic progress than what we have had 
to date.
    Mr. Wilson. I appreciate your efforts. And General Barno, I 
appreciate your family's service. And I had the privilege of 
you hosting me my first visit of 11 to Afghanistan. And I know 
firsthand your concern for our service members and military 
families. That is why with the incidence of green on blue 
attacks, what is being done to restore trust between our 
military personnel and to protect American and allied forces?
    General Barno. We have seen, I think very fortunately, a 
tremendous diminishment of those attacks over the last several 
months. That late summer last year was becoming a debilitating 
strategic problem for us back here at home, it was among the 
forces in Afghanistan. And I think the command in Afghanistan, 
led by General Allen, put in some very smart protective 
measures, guardian angels, where there would always be a 
soldier or marine over watching other soldiers that were 
engaging in activity with Afghans, requiring higher levels of 
personal protection around Afghans, looking to modify some of 
our exposure, and just generally raising the threat awareness. 
I think that has had a very positive effect. Let's all hope 
that that continues to be a positive direction here in this 
year.
    Mr. Wilson. And that is good news. And I want to thank Mr. 
Cordesman and Dr. Dale for being here today, too. And your 
metrics report is excellent. Thank you very much.
    Mr. Thornberry. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Good to have all of 
you here with us, although I think that it is very difficult to 
have a sense of optimism coming from any of you. And I think 
that obviously is reflected in our comments as well.
    General Barno, you mentioned our strategic objectives. And 
I am wondering whether you think that Afghans certainly beyond 
the security forces themselves should share our strategic 
objectives, which are basically to keep Afghanistan free from 
terrorism and mitigate any nuclear conflict between Pakistan 
and India. Do they share those objectives? And is that what 
would promote a sustained success in the long run?
    General Barno. I think there is overlap in our objectives 
and the objectives of the Afghan people and their government. 
They are certainly not the same, and they don't have a global 
perspective, they don't have global responsibilities. They are 
worried about terrorism at home in Afghanistan. We are worried 
about terrorism being projected from Afghanistan or Pakistan to 
the United States or to Europe. So we have got a bit of a 
different horizon than they have. But I do think that we 
certainly broadly share the strategic objectives of having a 
stable Afghanistan that is not a sanctuary for terrorism in 
which the government is a reasonably fair elected government in 
which the economy continues to grow. There has been tremendous 
growth in the Afghan economy over the last 7 or 8 years. That 
is not remarked much upon here in the United States. The 
Afghans feel that, and are worried about that, returning back 
to a less prosperous time as forces come out and as the 
security threat continues to be problematic. So I think we 
broadly share some of those objectives. But again, our horizon 
is considerably different than I think the Afghans.
    Mrs. Davis. I guess people would suggest, though, that the 
economy has certainly been supported by our activities there, 
and that in fact once we leave in great numbers that that has 
an opportunity to collapse.
    General Barno. There is concern about that. But I think the 
economic analysis I have seen suggested it is going to reduce 
their growth rate, but they are still going to have a fairly 
substantial growth rate of 5 or 6 percent a year. You know, 
they have been doing 12 or better for a number of years, partly 
because of the amount of money we put in. So they are not 
really looking at a depression or a recession, simply a 
flattening of that growth a bit. And there is a lot of sectors 
that--telecommunications for example--that are not really 
driven by military expenditures there that are blooming all 
across Afghanistan. So I think--and again looking at their 
mineral resources that are a number of years down the road, 
they have got some good foundation blocks there if they can 
maintain a government that is moderately effective and a 
security situation that is not chaotic.
    Mrs. Davis. Mr. Cordesman, you spoke about the new metrics, 
and really it is about performance. And the Afghan Special 
Forces have been touted as kind of second to none, I guess, 
even though the numbers I think are somewhere in the 
neighborhood of about 15,000. Is that something that really we 
need to focus more on, that that is a greater source of 
optimism than perhaps we have acknowledged?
    Mr. Cordesman. I think one has to be very careful, because 
the Afghan Special Forces have done well. How well they will do 
once we cease to support them is a real question. And a lot of 
that depends not on them, but the other aspects of the MOD 
[Ministry of Defense] and structure and how they are used and 
actually allocated. But the problem with Special Forces is that 
just because they are very valuable doesn't mean you can grow 
more easily. And again, at this point we don't have the trainer 
base, the partners to deal even with the ANA as a whole, much 
less the police and other elements.
    Mrs. Davis. If I could just interrupt you quickly, because 
my time is running out, I think the focus on the Afghan people, 
public opinion, apparently that has been fairly strong and 
constant in some areas that people have a sense of confidence 
in the future. And yet as we have an opportunity to work even 
in remote provinces with women, they do not feel that the 
police is providing the kind of security that will really 
promote some ideals that we think about, which, you know, 
aspiring of education and work ethic in their communities. Is 
that something, again, that we really aren't focusing on 
enough, and perhaps would the elements of a civil society are 
such that that should be part of our national security in the 
area to a greater extent than we are talking about?
    Mr. Cordesman. If I may take just a second to answer, part 
of the problem is that it isn't just the police. There are 
almost no functioning courts, no actual ability to enforce 
court decisions in terms of dealing with women. We have all 
kinds of numbers on civil society, like the number of people 
educated, where the minute you ask you find there is no source 
for the data. So we are quoting the number of women educated 
with no statistical base for doing it. We are talking about GDP 
[gross domestic product] growth, but for example Ken Katzman of 
CRS says 90 percent comes from aid. And the study General Barno 
referred to would not look at drugs, worst cases, corruption, 
or capital flight. It is a World Bank study, which is 
meaningless.
    Mr. Thornberry. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I want to thank our 
panelists. I appreciate both their expertise and their 
contribution to this important discussion on policy and 
objectives. We have to keep in mind the reason why we are in 
Afghanistan, a result of the 9/11 attacks on our country. And 
our goal has been ensuring that those responsible for those 
attacks would be held accountable, and that we would ensure 
that conditions in Afghanistan do not revert, and that we 
prevent similar future attacks.
    One of the issues that I have been most concerned with with 
respect to the Afghanistan operation has been the issue of the 
drug trade, and my concern of it funding the insurgents, 
greater instability in the country, and corruption. I have 
raised this issue with President Karzai, Generals Petraeus, 
Mattis, Allen, and the DEA [Drug Enforcement Agency] to try to 
raise the profile of the issue. And General Keane and Mr. 
Cordesman, I appreciate you both raising this issue. So my 
questions are going to be directed to you concerning this. I 
want to provide you some context of my concern. In 2006, 
General James Jones, then the Supreme Allied Commander of 
Europe, stated that, quote, ``The Achilles heel of Afghanistan 
is the narcotics problem. I think the uncontrolled rise of the 
spread of narcotics, the business that it brings in, the money 
that it generates is being used to fund the insurgency, the 
criminal element, anything to bring chaos and disorder.'' 
General Allen stated that the narcotics trade and its linkage 
to the insurgency contribute to regional insecurity, 
corruption, volatility in the rule of law, and the stagnation 
of economic development.
    Now, for many of our hearings I have held up this chart, 
which is a study that was done with the United Nations Office 
of Drugs and Crime. And it shows the historical production of 
opium in Afghanistan from 1991 through 2009. And you can notice 
in this period where we are there from 2004 through 2009, you 
see a doubling of the historical levels of opium production in 
Afghanistan. So under our efforts you actually see where there 
was an increase that then was available for the use to fund the 
insurgents. General Petraeus said this chart doesn't reflect 
the accomplishments that they were making while he was in 
command. He provided me this chart that showed, again, the peak 
that we had in 2009, and it was coming down in 2010, and 
illustrating a 48-percent decrease from 2009 to 2010. And they 
showed an incredible increase in the seizures and in 
eradication in going after the drug lords, the money, the labs, 
and the like. My concern is that as we are looking to the 
drawdown, if there is a premature effort of U.S. and ISAF 
forces in Afghanistan to withdraw, that we could reverse this 
trend. I am not confident that the Afghan police and the 
national forces are prepared to either continue the downward 
slope of that, and in fact that they might be susceptible to 
both the corruption and the instability caused by that funding, 
in addition to not be up to the challenge of what that funding 
represents in support for the insurgents.
    I would like if both of you, Mr. Cordesman and General 
Keane, if you could speak on your concern or thoughts about the 
trends in the drug trade and the shift to the Afghan 
leadership. General Keane, you want to start?
    General Keane. Go ahead, Tony.
    Mr. Cordesman. All right. Let me just say, if you looked at 
the updated chart you would see all those trends have been 
reversed. The amount of acreage that the U.N. projects has 
increased steadily between 2010----
    Mr. Turner. You are a little bit far away from the 
microphone. That first part I think was really important. Could 
you speak again about the trends being reversed already?
    Mr. Cordesman. If you look at the most recent U.N. report 
for 2012, you will see that there is a major increase in 
acreage of cultivation. The decline you saw was not a result of 
enforcement, it was a result of poor rainfall, and it was a 
result of disease in the opium crop. That still is a problem. 
So it won't restore in terms of the volume. But in terms of the 
earning power, it has gone up. And in terms of the actual area 
under cultivation, that is very sharply up. And it is up in 
Helmand, which is the area that we were attempting to secure. 
The other problem that you have here is as we pull aid money 
out, some of the U.N. estimates say that about 40 percent of 
the Taliban economy, the GDP came from drug earnings. The 
current estimate is very uncertain because nobody can agree on 
it. So you get anywhere from 6 to 15 percent of the Afghan GDP 
is funded by drugs and criminal networks. The minute we start 
pulling the aid money out, the incentive to do that goes way 
up, partly because you still haven't solved the agricultural 
distribution problems.
    General Keane. Yes. I appreciate that discussion. I think 
the drug culture and the drug trade that exists in Afghanistan 
will be there 10, 20 years from now. And I think that is just a 
harsh reality. Certainly the growth of the Afghan economy, 
their mineral development and their manufacturing capability 
that comes from that could be a major, you know, push against 
this drug trade continuing to grow. But I think our interest 
has been, and I think we have to have a limited focus here in 
terms of what is reasonable for us to do in the timeframe that 
we have to do it. And I think what we have tried to do is 
similar to what the Colombians tried to do with their drug 
trade and the FARC [Revolutionary Armed Forces of Colombia], 
and that is to separate the support from the drug trade to the 
insurgency. And we have had mixed success with that. I mean the 
fact of the matter is they are still getting money from it 
today, they were getting money from it before, and they are 
going to get money from it. And we have had some highs and lows 
with it. Certain districts we have had some success. But that 
has been a real challenge for us. I still think that the 
opportunity to make progress in Afghanistan as an institution 
politically, this is largely their choice, and also the economy 
is largely their choice. And also with the security situation, 
I am convinced we can make some progress if we mitigate the 
risk. And I just got to believe that we are going to make 
minimal impact on this drug culture that currently exists. And 
it is going to be there probably for another generation.
    Mr. Thornberry. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. Thank you, 
gentlemen, for being here. General Keane, I wanted to return to 
your discussion of the sanctuaries and the work that needs to 
be done there. I am a little bit concerned with the number in 
your report of a total of 25,000 troops needed with the 
counterterrorism, training and assistance enablers, and that 
those enablers would be supporting not just ANSF forces, but 
U.S. forces and NATO forces. I am going to assume that this 
25,000 is exclusive of NATO forces. On top of that, we are now 
talking about working with drone units to continue to disrupt 
sanctuary operations. How long? I mean how long would we need 
to maintain those drones there, those forces there to disrupt? 
Are there metrics? Is there an end-of-mission kind of a metric 
that we can say, okay, we have disrupted them for long enough?
    You see my concern with the length of time that we are 
committing troops for being there. Do we need to do this 
indefinitely? I come to this a little bit from my perspective, 
having served in the National Guard, where we still have forces 
in Kosovo 13 years later. And I just am reluctant to get us 
into a situation where we have a mission that has no ending in 
sight.
    General Keane. Yeah, my oral statement had a total force of 
20,000, not 25,000. But I think we are mixing the forces up a 
little bit. The counterterrorism force that would exist in 
Afghanistan would largely be conducting attacks against 
Afghanistan Taliban leadership within the confines of 
Afghanistan. The suggestion to go and violate Pakistan's 
sovereignty against their wishes, which is the suggestion I am 
making, that would be done by OGA, and it would not be done by 
U.S. military forces. So that would be an expansion of the 
mission that already exists, authorized by the President, 
willingly supported by Pakistan, and that is to target Al Qaeda 
central leadership in Pakistan. That is done, as you know, 
routinely, and we have had some success against that. What I am 
suggesting is we add to that portfolio the mission to at least 
begin with the Haqqani network and have that capability be used 
against that as well. Whether they would have to expand it or 
not would be up to them. So it would not come from forces 
inside Afghanistan, although we must admit that those 
operations do originate from Afghanistan, and they come from 
bases that are protected inside of Afghanistan to conduct those 
operations in Pakistan.
    Ms. Duckworth. So then would those bases from which the 
missions would be launched inside Afghanistan, would those 
require additional U.S. enablers, additional forces, or would 
that come out of the 20,000?
    General Keane. I don't think so. Right now those--some of 
this is classified, so we got to be careful--but we have 
different kinds of security forces at those bases. And just let 
me leave it at that. I don't believe an expansion of that 
particular mission would involve additional force structure in 
Afghanistan from the United States or from NATO.
    Ms. Duckworth. And do you have a metric for when, how long 
we would support this additional mission for the OGA of 
disruption of the sanctuaries? Do we do it forever? For 
example, if we stop, would they reconsolidate and return to 
what they were doing? I understand that this is a little bit of 
prognostication I am asking you to do. But what is the metric 
for when do we support this?
    General Keane. I couldn't give you an answer. But I think 
you would make the judgment based on the effects that you are 
able to achieve as a result of it in Afghanistan itself. And 
obviously, we would have some intelligence on what is taking 
place there with the Haqqani network and also with the Quetta 
Shura, which we do right now. So I think that would give us 
some sense as to whether we are achieving any results and when 
we could cease those operations.
    Ms. Duckworth. Thank you, General. I yield back my time, 
Mr. Chairman.
    The Chairman. [Presiding.] Thank you. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. There are some who 
would say or have said that the Karzai government is little 
more than a vertically integrated criminal enterprise because 
of the level of corruption. And it doesn't seem like we have 
been successful in terms of combating that corruption. Unless 
anybody on the panel can tell me, I don't know of any aid that 
has been permanently withheld because of their practices. And 
so can somebody speak to how do we deal with this extraordinary 
level of corruption in our partner, the Afghan Government?
    Mr. Cordesman. I am going to take very briefly, our goal is 
in theory to increase funding to the Afghan Government so it 
can steadily take over the remaining portion of aid. We have 
dealt with corruption in general by not funding through the 
Afghan Government. So most of the aid money has gone directly 
around the central government structure. I think in fairness, a 
lot of this has been our fault, a failure to really validate 
the contracts, measures of effectiveness, control of funds, 
something General McMaster has found in his studies. But your 
question is a key one. The Afghan Government made commitments, 
very formal commitments that it would change this process as 
part of transition. It is up to you to hold them accountable, 
because it is a fair statement to say that the Karzai 
government has never once honored an anticorruption pledge to 
date.
    Mr. Coffman. And didn't we--obviously, I think we wanted to 
build up their institutions of governance, their capability by 
initially having the aid flow through the government. But then 
the corruption was so incredible, I think that we diverted that 
aid and tried to give it directly to whatever the intended 
recipient was. But, you know, how do we--I mean do we establish 
benchmarks to where if they fail to meet them that we do 
permanently withhold aid? I don't think the American taxpayers 
should be subjected to this level of corruption without end.
    Dr. Dale.
    Dr. Dale. Sir, thanks for that terrific question. 
Absolutely, as you characterize, the way that power operates in 
Afghanistan is really on the basis of patronage networks of 
power and influence. And not all of those are malign, but some 
are, and they distribute resources unevenly, disenfranchise 
some, and do not operate in accordance with the rule of law. We 
have tried a number of things over the last 10 years, some more 
successful than others. But I would like to answer your 
question by pointing ahead. The mutual accountability framework 
that came out of the Tokyo conference last year, that includes 
a set of commitments, Afghan improvements in the arena of 
corruption and international reactions that based on whether 
those are complied with is a terrific opportunity. What makes 
it tough is we have got to discipline ourselves in order to 
make that work. The other piece, and ultimately the most 
helpful one, are frankly the Afghan people. They are the best 
potential checks and balances on the Afghan system. Their 
voices have not been very visible through years of war. But 
that civil society, it is the armed forces, it is the media, it 
is all of those organizations that can eventually be brought to 
bear to help hold their own system accountable. And that is 
another arena in which we can, with technical support and 
encouragement, encourage change.
    Mr. Coffman. But even if you look at the Tokyo accords, 
there are not specific metrics yet that have been drafted to 
establish the kind of benchmarks I am talking about that makes 
aid contingent upon the Afghanistan Government's ability to 
clean up this problem.
    Dr. Dale. So you point to a great point, which is how do 
you implement this? The idea is look, it is a good foundation, 
it is a new step forward, because everyone agreed there is a 
lot of money on the line, which Afghanistan is going to need 
some help over this decade of transformation in order to 
sustain the campaign gains and be stable. So they have equities 
in all of this. It is up to us as an international community to 
be very disciplined amongst ourselves in figuring out what 
accountability really looks like. That is hard, but it is not 
undoable.
    Mr. Coffman. Mr. Chairman, I believe fundamentally that we 
have to be willing to sever this aid is the only way I think we 
are going to clean up this situation for the American taxpayers 
and for the other donor countries that are involved with that. 
We deserve better.
    I yield back.
    The Chairman. Thank you. Dr. Wenstrup.
    Dr. Wenstrup. Yeah, thank you, Mr. Chairman. When we were 
attacked in 2001, I looked at what lay ahead for us as a 30- or 
40-year effort. And I still look at it that way. In addition to 
the military role, I look at what our nonmilitary role is down 
the road. And I was just curious to hear your comments on how 
much are we now involved and how much should we be involved in 
the future, especially in Afghanistan, from an educational role 
and an economic development role for that country? And what 
your thoughts are on where we have been and where we should go.
    Mr. Cordesman. I would certainly, all of us could make a 
contribution there. But I think our basic problem is this. If 
we go with the existing plan, we will pull most of the aid 
workers out of the field, we will get rid of the PRTs 
[Provincial Reconstruction Teams], we will become dependent on 
the government and on the Afghans to do this. We in theory have 
a commitment, and perhaps Catherine can correct me, of roughly 
$1.7 billion a year in civil aid. But there is no plan to use 
it. And AID [Agency for International Development] is talking 
about emerging with the plan in the spring of 2014, which is 
just fine, but the last two fiscal years that influence the war 
will be over, and by the time the plan is written our ability 
to control the flow of money and assess it is going to be very 
limited. That pushes things down on one group, which is now 
back in Afghanistan, which is the World Bank. The problem is 
the World Bank is technically a client of Afghanistan. And as I 
mentioned earlier, they can't examine worst cases, drugs, 
corruptions, capital flight, or any of the other key variables. 
So unless there is a clear direction for meaningful planning 
based on the resources we are actually likely to get, and we 
actually work with Afghans like Ashraf Ghani, we end up with 
all of these slogans, concepts, and unstructured plans and 
ideas. And it is really--we have very little time to make this 
work, or one way or another we will simply have to give them 
the money, and as Catherine has pointed out, hope that some of 
it is used in the right way, and that most of it buys 
stability, even if it doesn't buy development.
    Dr. Wenstrup. Did you have anything else to add, ma'am?
    Dr. Dale. Sir, from Dr. Cordesman's remarks, as we look 
forward with our assistance, a couple things are really 
critical. Prioritization really matters, with fiscal pressure 
absolutely on all of us. That is one thing we have been 
working, the international community, with the Afghan 
Government through the Kabul process for several years now to 
focus assistance efforts, where Afghans find it necessary and 
where we can really make a difference. But prioritization is 
absolutely critical. A second piece is our own just 
implementing role, what that looks like. Again as Dr. Cordesman 
points out, our civilian footprint will diminish. That is a 
good thing, frankly, in many ways. But how do we work through 
Afghan experts who then provide the right technical expertise? 
And how do we maintain some visibility on the results as we 
lose that direct day-to-day connectivity are going to be 
important questions.
    Dr. Wenstrup. Thank you. I yield the remainder of my time.
    The Chairman. Thank you. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. And ma'am and 
gentlemen, thank you for your service. And one of the things 
that has not been discussed is China's role over the next 
couple of years with Afghanistan. Just reading briefly from a 
USA Today article, China, a long bystander, essentially they 
haven't helped us, we have borrowed money from them to conduct 
this war. Then it goes on to say Beijing signed a strategic 
partnership last summer with the war-torn country that was 
followed in September with trips from their leadership. It 
talks about China getting the development rights in the 
country.
    My question is why should we spend, why should we borrow 
one more dime from countries like China to operate in 
Afghanistan when 2 years from now, if not sooner, they are 
going to be the country that Afghanistan is depending on and 
has the strongest relationship with with regard to trade and 
economic development?
    Ma'am, General Keane?
    Dr. Dale. Sir, thanks for that. Absolutely, China has 
effectively been able to play a freerider role as we worked 
with Afghan counterparts and other allies and partners to 
provide security for the Afghan people, and frankly the region. 
And that is true to this point. Looking ahead, though, there 
are great questions. Afghanistan's future stability depends on 
the neighborhood and on the big players who are engaged. The 
first trick is simply to be aware of those interests and that 
kind of engagement, first of all. But I think we have, as the 
United States, the great privilege of being seen in many 
quarters as the security partner and the partner in many ways 
of choice. So it is partly up to us what our future commitment 
looks like and how we want to characterize it. Particularly 
important is how much clarity we can provide about what our 
future role is. Because that is what tempers the Afghans' 
hedging against future uncertainty.
    General Keane. You know, I think certainly China has great 
interest in Afghanistan, particularly after the survey came out 
and the degree of minerals that are in that country. And as we 
all know, they have been acquiring rights to minerals all over 
the world. And it is something that is clearly one of their 
major objectives. And certainly that has been the case. And 
they have been in Afghanistan with that intent in mind. But in 
dealing with Afghan leaders on this, I mean I think they are 
pretty clear-eyed here about what China's interest is, and 
clearly their own, in maintaining their own growth, economic 
growth in the future. And I also think it is, as you suggest, 
it is imperative on the United States and the international 
community also to be clear-eyed about what is happening here. 
And we do have a role, an influencing role with Afghanistan as 
it pertains to a new developing partner in China. But I think 
these decisions will largely be Afghan decisions. And they will 
be making decisions in their own national interest. And I think 
we have every right to help shape that, as you are suggesting. 
And we will just see how this plays out in the future.
    Mostly, this is a good news story for Afghanistan. They 
have in front of them a means to acquire wealth and to begin to 
grow an economy that can serve its people. And we can influence 
that. But largely it is going to be their decisions.
    Mr. Scott. General, if I may, and gentlemen, I am sorry, I 
am down to one minute, and you have been here long enough to 
understand how it goes. I guess my question is Georgia National 
Guard is going to be fighting through the next two seasons with 
the Taliban. Over the next 2 years, China will obviously become 
a larger holder of American debt. Our men, our women in uniform 
will be paying the price, our taxpayers will be paying the 
price, and China will be sitting back reaping the rewards from 
both sides. So why shouldn't we come home now and let the 
Chinese Government pay for the security in that country when 
they are the ones that are going to be--they are the next-door 
neighbor, they are the ones that will be helping develop it?
    Why should one more Georgia soldier take a wound, a fatal 
wound in some cases, for a country that is going to be, I 
believe, primarily controlled by the Chinese in the future? I 
got 18 seconds.
    General Barno. Tough question, obviously, Congressman. I 
think I would argue that we need to be doing more with the 
Afghan Government to make sure the United States sees some 
benefits from this mineral wealth inside of Afghanistan as 
well. I don't think we want to encourage necessarily the 
Chinese to play a more active role or to play a security role. 
They are there clearly for other reasons. But I think we are 
the major stakeholder in Afghanistan over the last decade. We 
put tens of billions of dollars in there. There ought to be a 
continuing relationship, and the United States as well as the 
Afghans ought to partner in some of these mineral discoveries 
as they come to the fore here in the next few years. I don't 
think the Chinese are going to play as active a role perhaps as 
you might think though.
    Mr. Scott. Maybe they could pay us back a little bit?
    The Chairman. Thank you very much. Thank you for being 
here. You know, with all that is going on with the sequester 
and all the other things that are being thrown at us, gun 
control, illegal immigration, violence against women, there are 
lots of things happening here. And I think many people have 
forgotten we are at war. And I thank you for bringing it back 
to our attention. And these are things that we really need to 
focus on in the near future, at least this committee needs to.
    Thank you very much. The committee stands adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                           February 27, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 27, 2013

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

          Transition in Afghanistan: Views of Outside Experts

                           February 27, 2013

    Good morning, ladies and gentlemen. The House Armed 
Services Committee meets to receive testimony on the transition 
in Afghanistan. Today, we have with us Dr. Catherine Dale, 
General (Retired) Jack Keane, Lieutenant General (Retired) 
David Barno, and Mr. Anthony Cordesman. Thank you for joining 
us today and sharing your expertise.
    A discussion on our transition from Afghanistan should 
start with a reminder of why the United States went there in 
the first place. The most lethal and complex terrorist attack 
in U.S. history was plotted and perpetrated by Al Qaeda in 
Afghanistan.
    But after over 10 years of war, the American people are 
understandably war-weary. The United States has committed a 
wealth of resources in the form of both blood and treasure to 
preserve U.S. vital national security interests and prevent 
Afghanistan from being used again as a safe haven for 
terrorists.
    The question before us is whether or not we can continue to 
prevent Afghanistan from being used as such a sanctuary. The 
NATO mission officially ends December 31, 2014. Although we 
have not finalized the transition to Afghan security lead, 
President Obama already has announced the withdrawal of half of 
the U.S. forces in Afghanistan--approximately 34,000 troops--by 
this time next year. In the near future, the President likely 
will order additional troop withdrawals and determine the 
United States' post-2014 mission set and military posture in 
Afghanistan.
    In my view, the President is not adequately evaluating the 
risk associated with rapid and large-scale troop withdrawals--
in terms of both local and regional consequences, as well as 
U.S. vital interests. The President has decided to conduct this 
significant withdrawal of U.S. troops during the same time 
period that the Afghan security forces will be in the lead 
across the entire country for the first time. Moreover, the 
Administration does not have a discernible plan to reinforce 
the Afghan security forces if they cannot hold the gains and/or 
maintain the necessary security across the country. 
Consequently, the President's approach is fraught with risk and 
lacks a comprehensive strategy to ensure the security and 
sovereignty of Afghanistan--and thereby U.S. interests--over 
time. Rather, the President's approach to Afghanistan appears 
to be ``withdraw and hope.''
    I am not advocating for a never-ending combat mission in 
Afghanistan. But the President should make decisions on troop 
withdrawals within the context of the security conditions on 
the ground, the capability and capacity of the ANSF, and the 
required mission sets after December 31, 2014.
    We owe nothing less to the victims on 9/11, the U.S. troops 
and their families who have served and sacrificed, and our sons 
and daughters who will have to return if we get this wrong. The 
simple justice that comes from that principled position cannot 
be overstated.
    I look forward to your testimony and insights into the 
transition and way forward for U.S. policy in Afghanistan.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

          Transition in Afghanistan: Views of Outside Experts

                           February 27, 2013

    Thank you, Mr. Chairman. I thank you for holding this 
hearing and bringing together such a distinguished panel of 
experts on this very important topic, and I also agree that the 
mission in Afghanistan is very straightforward and clear. We 
were attacked by Al Qaeda and their organization which was 
based out of Afghanistan. We want to make sure that such an 
attack cannot emanate from that region ever again. We want to 
degrade Al Qaeda as much as possible and weaken their ability 
and the ability of any groups allied with them, and I think we 
have made considerable progress in that goal. I think the most 
notable example of that of course is getting Osama bin Laden 
but it is much, much deeper than that. The central structure of 
Al Qaeda has been largely smashed in Afghanistan and in 
neighboring Pakistan and their ability to plot and plan attacks 
against us has been significantly weakened. It has certainly 
not gone and we shouldn't elude ourselves about that, but 
progress has been made in that regard. We have also made 
progress in terms of the number of troops and security forces 
that we have trained in the ANSF, and we are moving in the 
right direction on that but should have no illusions. This is a 
very, very difficult part of the world. In both Afghanistan and 
Pakistan they have an endless series of problems with 
governance, corruption, education. It is not a stable place, 
and some of the most violent and dangerous ideologies that we 
face are present there. We are always going to have to pay 
attention to this region for our national security interests, 
but the question at this point is, is an unending U.S. military 
presence going to significantly change those challenges? I 
don't believe that it is. I believe that we have gotten pretty 
close to the point where we have done militarily what we can do 
in that region and it is time for the Afghan National Security 
Forces and the Afghan people to take responsibility for their 
own security and their own governance. And the only way to do 
that is to transition over to them taking the lead. Now that 
process has begun. In a number of different provinces the ANSF 
has taken the lead on security and we are moving in that 
direction.
    Again I want to emphasize that I don't have any illusions 
here. I think perhaps the largest struggle there in Afghanistan 
is the governance piece: What happens in 2014 when President 
Karzai can no longer be president, when there is a new 
election--who we transition to in Afghanistan. How do we deal 
with the corruption issues and the lack of economic 
opportunity. Those challenges will always be present but having 
100,000 U.S. troops in the region isn't going to change that 
past a certain point. I think we have reached that point. I 
think the challenge for the Commander in Chief and the 
challenge for this committee and our experts is to figure out 
what the best way to implement that path going forward is.
    I think the President has laid out a pretty reasonable 
strategy for doing that. Again, no guarantees, but it is the 
most logical thing to do at this point to transition over to 
the Afghan National Security Forces, to reduce our presence in 
the region and move out and turn over responsibility to the 
folks who ultimately are going to have to be responsible for 
it. It is a simple fact that past a certain point a large 
foreign military force is in and of itself destabilizing. It 
does not build confidence in the Afghan, in any country's 
government, and any people would be concerned about having a 
large number of foreign military forces on their land. It is 
time to make that transition.
    I look forward to hearing from our witnesses about what the 
best way to do that is, the difficult decisions that we face in 
making that decision, but I believe it is time to move in that 
direction. I look forward to the testimony and to the questions 
from the panel. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 27, 2013

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. 1) There are certainly a broad range of competing 
interests at stake--from the Northern Alliance's general hostility and 
difficulty in dealing politically with the Taliban, to the various 
disparate factions within the Taliban itself. Equally pressing are the 
interests of the Afghan government, as well as the interests of actors 
in Pakistan who have great sway over those within Afghanistan. 
Certainly the withdrawal of American and NATO troops affects the 
dynamics of these relationships, as does the implied continued 
financial support for Afghan security signified by a troop presence, 
regardless of U.S. insistence that negotiations be Afghan-led. Can you 
share with us how you see the various permutations of residual forces 
affecting the political dynamics of negotiations?
    Dr. Dale. [The information was not available at the time of 
printing.]
    Mr. Langevin. 2) Governance reform is going to be integral to the 
stability of an Afghan government, but has been shunted aside in large 
part due to other concerns. With reduced troop levels and challenges to 
funding of ANA forces, do you see the United States as still having the 
leverage to encourage governance reform?
    Dr. Dale. [The information was not available at the time of 
printing.]
    Mr. Langevin. 3) Recently, President Karzai ordered the withdrawal 
of U.S. special forces from Wardak, a key province southwest of Kabul. 
This follows the ban on coalition airstrikes in residential areas last 
week. With the understanding that such controversies will arise, can 
you speak to the effect of these moves on the broader picture? How will 
this affect the training of and transition to ANA forces, and does this 
strengthen Karzai's hand in negotiations?
    Dr. Dale. [The information was not available at the time of 
printing.]

    Mr. Langevin. 4) There are certainly a broad range of competing 
interests at stake--from the Northern Alliance's general hostility and 
difficulty in dealing politically with the Taliban, to the various 
disparate factions within the Taliban itself. Equally pressing are the 
interests of the Afghan government, as well as the interests of actors 
in Pakistan who have great sway over those within Afghanistan. 
Certainly the withdrawal of American and NATO troops affects the 
dynamics of these relationships, as does the implied continued 
financial support for Afghan security signified by a troop presence, 
regardless of U.S. insistence that negotiations be Afghan-led. Can you 
share with us how you see the various permutations of residual forces 
affecting the political dynamics of negotiations?
    General Keane. [The information was not available at the time of 
printing.]
    Mr. Langevin. 5) Governance reform is going to be integral to the 
stability of an Afghan government, but has been shunted aside in large 
part due to other concerns. With reduced troop levels and challenges to 
funding of ANA forces, do you see the United States as still having the 
leverage to encourage governance reform?
    General Keane. [The information was not available at the time of 
printing.]
    Mr. Langevin. 6) Recently, President Karzai ordered the withdrawal 
of U.S. special forces from Wardak, a key province southwest of Kabul. 
This follows the ban on coalition airstrikes in residential areas last 
week. With the understanding that such controversies will arise, can 
you speak to the effect of these moves on the broader picture? How will 
this affect the training of and transition to ANA forces, and does this 
strengthen Karzai's hand in negotiations?
    General Keane. [The information was not available at the time of 
printing.]

    Mr. Langevin. 7) There are certainly a broad range of competing 
interests at stake--from the Northern Alliance's general hostility and 
difficulty in dealing politically with the Taliban, to the various 
disparate factions within the Taliban itself. Equally pressing are the 
interests of the Afghan government, as well as the interests of actors 
in Pakistan who have great sway over those within Afghanistan. 
Certainly the withdrawal of American and NATO troops affects the 
dynamics of these relationships, as does the implied continued 
financial support for Afghan security signified by a troop presence, 
regardless of U.S. insistence that negotiations be Afghan-led. Can you 
share with us how you see the various permutations of residual forces 
affecting the political dynamics of negotiations?
    Mr. Cordesman. Transition is going to involve continuing Pakistani 
struggles to dominate the east and south of Afghanistan, and use the 
ISI to manipulate the Taliban and Haqqani Network. India will play its 
own game through aid to GIRoA and working with Iran to create new rail 
and road links to the West.
    Iran will seek influence in western Afghanistan with the Hazara, 
and to counter U.S. influence. Each of the central Asia states will 
pursue its own interested in the north, with links to its own ethnic 
groups in Afghanistan. Russia will seek to contain any threat and the 
flow of narcotics, but avoid any new commitment. China will pursue its 
own economic interests cautiously.
    The end result will be a ``new great game'' and not regional 
cooperation, regardless of rhetoric to the contrary. It will also be 
extremely dependent on how well the new Afghan leadership actually 
leads and governs after the 2014 election, and the unity of the ANSF.
    Mr. Langevin. 8) Governance reform is going to be integral to the 
stability of an Afghan government, but has been shunted aside in large 
part due to other concerns. With reduced troop levels and challenges to 
funding of ANA forces, do you see the United States as still having the 
leverage to encourage governance reform?
    Mr. Cordesman. The U.S. has little meaningful leverage now, aside 
from occasionally influencing the appointments of provincial and 
district governors and police chiefs. World Bank studies and the DOD 
1230 reports indicate that U.S. aid efforts have had little effect. The 
U.S. will, however, see a decline in both its awareness of problems and 
progress and its influence as its forces drop. In general, 
Afghanistan's government will be weak and often corrupt, and the Afghan 
President's control over appointments and government revenues will make 
him the decisive factor.
    Mr. Langevin. 9) Recently, President Karzai ordered the withdrawal 
of U.S. special forces from Wardak, a key province southwest of Kabul. 
This follows the ban on coalition airstrikes in residential areas last 
week. With the understanding that such controversies will arise, can 
you speak to the effect of these moves on the broader picture? How will 
this affect the training of and transition to ANA forces, and does this 
strengthen Karzai's hand in negotiations?
    Mr. Cordesman. As has become all too clear since the hearing, 
President has never shown much concern for military effectiveness and 
pursues his own political interests as well as listens to close 
advisors that do not support the U.S. and often provide grossly 
exaggerated picture of U.S. military mistakes. These problems can be 
papered over until the 2014 elections, but not without difficulty and 
the near certainty of new incidents and tensions. The ket test will be 
the 2014 elections: Whether they are held, their resorts after they, 
and how the new President and afghan senior officials deal with 
security issues and the US.

    Mr. Langevin. 10) There are certainly a broad range of competing 
interests at stake--from the Northern Alliance's general hostility and 
difficulty in dealing politically with the Taliban, to the various 
disparate factions within the Taliban itself. Equally pressing are the 
interests of the Afghan government, as well as the interests of actors 
in Pakistan who have great sway over those within Afghanistan. 
Certainly the withdrawal of American and NATO troops affects the 
dynamics of these relationships, as does the implied continued 
financial support for Afghan security signified by a troop presence, 
regardless of U.S. insistence that negotiations be Afghan-led. Can you 
share with us how you see the various permutations of residual forces 
affecting the political dynamics of negotiations?
    General Barno. In my view, negotiations with the Taliban will not 
reach a serious stage until the bulk of foreign/international forces 
exit Afghanistan in December 2014. Once the Taliban and the successor 
to the Karzai government recognize that they remain locked in a 
potentially interminable Afghan vs. Afghan conflict, options for 
serious talks will likely emerge. I believe the prospects for any type 
of negotiated end to the war prior to the end of 2014 are highly 
dubious.
    Mr. Langevin. 11) Governance reform is going to be integral to the 
stability of an Afghan government, but has been shunted aside in large 
part due to other concerns. With reduced troop levels and challenges to 
funding of ANA forces, do you see the United States as still having the 
leverage to encourage governance reform?
    General Barno. I believe serious Afghan government reform will only 
come if the Afghan government, president and people collectively 
realize that there is no other choice for survival. I see almost no 
circumstances for that to occur in the next two years. Moreover, I 
believe that ineffective and often corrupt Afghan governance is 
endemic, and unlikely to be influenced through Western leverage. The 
last ten years should provide ample evidence of the degree of 
difficulty inherent in this effort. If we achieved little success in a 
decade with massive international troop presence and financial support, 
the prospects for a better future outcome in this arena with neither 
present in Afghanistan are minimal.
    Mr. Langevin. 12) Recently, President Karzai ordered the withdrawal 
of U.S. special forces from Wardak, a key province southwest of Kabul. 
This follows the ban on coalition airstrikes in residential areas last 
week. With the understanding that such controversies will arise, can 
you speak to the effect of these moves on the broader picture? How will 
this affect the training of and transition to ANA forces, and does this 
strengthen Karzai's hand in negotiations?
    General Barno. These recent moves by President Karzai relate, in my 
view, to his attempts to burnish his legitimacy as a nationalist leader 
``pushing back on behalf of his people'' against western power and 
influence in Afghanistan. These proclamations have more to do with 
short-term political gain than any efforts to strengthen his 
negotiating hand for residual presence. In fact, I believe that there 
is substantial danger that Karzai could overplay his hand and so 
outrage Western sentiment that the U.S. and the international community 
may simply choose a ``zero option'' of no residual troop presence after 
2014 if Karzai does not moderate his rhetoric.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. 13) As a taxpayer, I find the amount of corruption, and 
Karzai's failure to really do anything about it, extremely concerning. 
The World Bank recently estimated that the cost of corruption in 
Afghanistan has actually increased significantly in the last three 
years to $3.9 billion. And I am alarmed that SIGAR and CRS have warned 
Congress that key elements of leadership and governance will be missing 
through at least 2014, so it's likely that we'll keep contributing to 
this corruption problem. What steps can DOD or NATO take to make sure 
that our security role isn't defined by subsidizing this corruption 
problem?
    Dr. Dale. [The information was not available at the time of 
printing.]
    Ms. Speier. 14) Dr. Dale, I think whether or not a program or 
project is going to be sustainable must be one of the first questions 
we ask for all of our efforts in Afghanistan. SIGAR has exposed 
millions of dollars of projects that will never really be used in 
Afghanistan, including electrical equipment that can't be installed. 
And on the security side, you point to significant concerns about the 
political will of the Afghan government or the Pakistanis to go after 
safe havens in Pakistan. You say some argue that stronger Afghan 
institutions might help, but is relying on that really a sustainable, 
or even a realistic strategy?
    Dr. Dale. [The information was not available at the time of 
printing.]

    Ms. Speier. 15) As a taxpayer, I find the amount of corruption, and 
Karzai's failure to really do anything about it, extremely concerning. 
The World Bank recently estimated that the cost of corruption in 
Afghanistan has actually increased significantly in the last three 
years to $3.9 billion. And I am alarmed that SIGAR and CRS have warned 
Congress that key elements of leadership and governance will be missing 
through at least 2014, so it's likely that we'll keep contributing to 
this corruption problem. What steps can DOD or NATO take to make sure 
that our security role isn't defined by subsidizing this corruption 
problem?
    General Keane. [The information was not available at the time of 
printing.]

    Ms. Speier. 16) As a taxpayer, I find the amount of corruption, and 
Karzai's failure to really do anything about it, extremely concerning. 
The World Bank recently estimated that the cost of corruption in 
Afghanistan has actually increased significantly in the last three 
years to $3.9 billion. And I am alarmed that SIGAR and CRS have warned 
Congress that key elements of leadership and governance will be missing 
through at least 2014, so it's likely that we'll keep contributing to 
this corruption problem. What steps can DOD or NATO take to make sure 
that our security role isn't defined by subsidizing this corruption 
problem?
    Mr. Cordesman. The Tokyo conference did set clear standards for 
Afghan reform based on Afghan pledges and commitments. The U.S. should 
hold the Afghan government fully accountable, and make aid and military 
support conditional on the basis of Afghan performance.
    At the same time, the U.S. is as much to blame as the Afghans. 
Pouring money into the country without meaningful plans, management, 
and accountability has had an immense corrupting effect. It has 
distorted much of the economy, raised prices and costs, and vastly 
exceeded Afghan absorption capacity. The U.S. military and USAID did 
not enforce meaningful accountability and contract standards before 
2011, and SIGAR is just becoming effective.
    No American should ever talk about Afghan corruption without 
looking in the mirror, and no member of Congress should ever forget 
that Congress failed to enforce meaningful standards on a grossly 
negligent State Department and USAID, and marginally better Department 
of Defense.
    Ms. Speier. 17) I am very concerned about the transition from 
private security contractors to the APPF, and have been frustrated that 
both GAO and SIGAR have had problems accessing reports assessing their 
effectiveness. Mr. Cordesman, you describe the creation of the APPF as 
``more a Karzai power grab than a real security reform.'' What are the 
political and cost implications of this power grab?
    Mr. Cordesman. We don't know how bad it will be. So far waivers and 
delay have solved the problem, and the APPF has been no more corrupt 
that the existing PSCs. It does seem likely, however, that the APPF 
will remain weaker than today's PSCs and that this will present growing 
problems after 2014 that the U.S. may have to solve by either using 
troops to provide security or sharply limiting its State Department and 
USAID movements in the field and the number of posts it can maintain 
outside Kabul.

    Ms. Speier. 18) As a taxpayer, I find the amount of corruption, and 
Karzai's failure to really do anything about it, extremely concerning. 
The World Bank recently estimated that the cost of corruption in 
Afghanistan has actually increased significantly in the last three 
years to $3.9 billion. And I am alarmed that SIGAR and CRS have warned 
Congress that key elements of leadership and governance will be missing 
through at least 2014, so it's likely that we'll keep contributing to 
this corruption problem. What steps can DOD or NATO take to make sure 
that our security role isn't defined by subsidizing this corruption 
problem?
    General Barno. This will remain a deep-seated problem in 
Afghanistan well beyond 2014. The U.S. and the international community 
must continue efforts such as SIGAR, using ``name and shame'' 
investigations, and sustain recent efforts to ensure western contracts 
are let with the appropriate ``teeth'' built in to deliver satisfactory 
performance and avoid obvious corrupt practices. The delivery of 
sustained aid should be tied to the commensurate ability of the United 
States to oversee and inspect the effective use of that aid. Providing 
dollars in coming years without adequate oversight is both a very 
likely outcome, and one guaranteeing waste, fraud and abuse of those 
dollars.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
